<html>
<title> - INNOVATIVE APPROACHES TO SCHOOL TIME</title>
<body><pre>[Senate Hearing 111-1157]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1157

 
                  INNOVATIVE APPROACHES TO SCHOOL TIME

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING INNOVATIVE APPROACHES TO SCHOOL TIME FOCUSING ON EFFICIENT 
                UTILIZATION TO ACHIEVE POSITIVE RESULTS

                               __________

                   AUGUST 24, 2010 (Albuquerque, NM)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
78-149                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2344534c63405650574b464f530d404c4e0d">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania   ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina         LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                 TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas          
MICHAEL F. BENNET, Colorado          
CARTE P. GOODWIN, West Virginia      

                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                        TUESDAY, AUGUST 24, 2010

                                                                   Page
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico, 
  opening statement..............................................     1
Riley, Jeffrey, Academic Superintendent, Boston Public Schools, 
  Boston, MA.....................................................     2
    Prepared statement...........................................     5
Brooks, Winston C., Superintendent, Albuquerque Public Schools, 
  Albuquerque, NM................................................     5
    Prepared statement...........................................     7
Paisano-Trujillo, Executive Director, Elev8 New Mexico, 
  Albuquerque, NM................................................     8
    Prepared statement...........................................    11
Horn, Michael B., Executive Director, Innosight Institute, 
  Mountain View, CA..............................................    16
    Prepared statement...........................................    18
Berstein, Ellen, Ed.D., President, Albuquerque Teachers 
  Federation, Albuquerque, NM....................................    20
    Prepared statement...........................................    22
Hyde, Sheila, Ph.D., Deputy Secretary, New Mexico Public 
  Education Department, Santa Fe, NM.............................    23
    Prepared statement...........................................    24

                                 (iii)

  


                  INNOVATIVE APPROACHES TO SCHOOL TIME

                              ----------                              


                        TUESDAY, AUGUST 24, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                   Albuquerque, NM.
    The committee met, pursuant to notice, at 10:35 a.m., at 
Albuquerque Public Schools Headquarters, 6400 Uptown Blvd. NE, 
Albuquerque, NM 87110, Hon. Jeff Bingaman, presiding.
    Present: Senator Bingaman.

                 Opening Statement of Senator Bingaman

    Senator Bingaman. Thank you all for coming today. And we 
hope to have a good discussion here for the next hour and 25 
minutes, right until about noon, and see if we can shed some 
light on some of these issues.
    This is a hearing of the Senate Health, Education, Labor, 
and Pensions Committee. I'm not the chair of that committee. 
But Senator Harkin who is, has authorized us to have this 
hearing and told me I could chair it. So I appreciate him doing 
that.
    We're going to use a roundtable format to facilitate 
conversation to inform all of us about New Mexico's State and 
local practices as well as national education policies.
    Let me, at the outset, mention Peter Zamora who works with 
me in Washington on education issues. I hope you all are 
acquainted with Peter. But he's been the one who has been doing 
a lot of the legwork to get this hearing set up. And Angelo 
Gonzales in the back of the room works on these same issues 
with Peter and me here in our Albuquerque office. So if you're 
not acquainted with them, I hope you'll get acquainted.
    I have long been engaged in trying to understand the 
importance of some of these school time issues. I'm trying to 
support increasing the amount of high quality academic 
instruction available to students in our State. Research and 
experience show that few policies have more effect on student 
learning.
    For example, Johns Hopkins University researchers found 
that two-thirds of the achievement gap between lower and higher 
income youth can be explained by unequal access to summer 
learning opportunities. Clearly we need to do more to provide 
increased learning opportunities, especially for disadvantaged 
students and those who are falling behind.
    Let me do a very brief introduction of our panel and then 
call on them for whatever statements they would like to make.
    Our first panel, Jeffrey Riley, is experienced as a 
principal and district leader in Boston. And he's going to talk 
to us about the success he had at Edwards Middle School and now 
the effort that's being made and success they're having in the 
Boston Public Schools more generally. He is now the academic 
superintendent for middle and K through 8 schools in Boston. 
He's had great success in dramatically improving student 
achievement.
    Superintendent Brooks is known to all of us. I was 
complimenting him on his moderating of the debate between our 
two gubernatorial candidates last week. He did a great job. 
Regardless of who you thought won the debate, everybody thought 
Winston Brooks won the debate. So that was good.
    And he has been innovative in his tenure here as 
superintendent of Albuquerque Public Schools and has made the 
effort to re-imagine the school day here in Albuquerque, which 
I'm sure he'll talk some about and we need to know more about.
    Ms. Paisano-Trujillo will discuss the excellent work that 
Elev8. Is that the right pronunciation?
    Ms. Paisano-Trujillo. Elev8.
    Senator Bingaman [continuing]. Elev8 New Mexico is doing to 
support community-based schools. And she has a long history of 
experience in education here in the State and has done a 
tremendous job in that over a long period of time.
    Michael Horn who is a coauthor of the influential book 
Disrupting Class is here to talk about how to promote academic 
systems and allow students to follow unique academic schedules 
tailored to their academic needs and their learning styles. And 
we're anxious to hear about that.
    Ellen Bernstein is well-known by everybody in the education 
community here in Albuquerque and New Mexico. She is the head 
of the local teacher's union, does a great job in that regard, 
and is a native of Albuquerque. And we're awfully glad to have 
her here to give her perspective.
    Dr. Sheila Hyde used to work with me and has moved on to 
bigger and better things and is now very much in charge of 
these issues of school time for the State and working in the 
State Department of Education. We appreciate her being here to 
give her perspective.
    I ask that each of you take 5 or 6 minutes, make the main 
points that you would like to have us understand. Your full 
statements will be included in the record of this hearing so 
you don't need to go through the whole thing. But if you could 
tell us the main points. And then I'll have some questions and 
maybe we can have a little bit of a discussion for the balance 
of our time.
    Jeffrey, why don't you go right ahead.

  STATEMENT OF JEFFREY RILEY, ACADEMIC SUPERINTENDENT, BOSTON 
                   PUBLIC SCHOOLS, BOSTON, MA

    Mr. Riley. Good morning, everyone. When I came today, I 
wanted to think about how to present this to you. And I'm going 
to begin with a very short story.
    Several years ago, at a midwestern university that shall go 
unnamed, there were a group of students taking a final exam in 
December, midyear final exam. And there were about 400 kids in 
the class. And it was an amphitheater style examination hall. 
And the rows went up. So the kids actually sat up and the 
professor was there on the ground floor. The kids got their 
blue books, and I think we all know what those are.
    And the professor wasn't very well liked. In fact, he was 
hated. And he said only this to the kids, you have 60 minutes 
to do the test, that's it, 60 minutes. And the kids started 
writing dutifully in their blue books.
    The 45-minute mark came up. The kids started bringing the 
exams down and piling them up on the professor's desk. At about 
the 50-minute mark, most of the kids were done. And more and 
more kids kept coming down, piling up the blue books on the 
professor's desk, and then walking out to get a slight vacation 
before the new semester started.
    At the 55-minute mark, the professor said you only have 
five minutes left, that's it. Bring it down when you're done. 
There was only about a handful of kids left, maybe three or 
four. At the 60-minute mark, there was one kid left. And the 
professor said that's it, time is up. And the kid ignored the 
professor and he kept writing in his blue book
    The professor said that's it, I said time is up. And he 
kept ignoring the professor. This went on for several minutes, 
which may not seem like a long time. But when it's just you and 
a professor, it's a long time. At about the 65-minute mark, the 
kid quietly closes his blue book and calmly walks down to the 
bottom where the professor is.
    And the professor at this point is apoplectic with rage. He 
can't believe a kid would disobey him like this. Do you know 
who I am? I'm going to fail you in this course, he ranted and 
raved, I should fail you right now.
    And the kid just said calmly to him, Professor, do you know 
my name? The professor said what? Professor, do you know my 
name? And the professor said no. And the kid said good. And he 
took his blue book and he shoved it in the middle of the pile 
and he ran out the door.
    I tell you that story because I used to believe that great 
education was all about personal relationships with kids, 
having a good professor that knew your name was enough. And I 
still believe that's the foundation of all good education.
    But what I've come to believe now is that with kids that 
need more time, time is the other piece, the piece we haven't 
talked about; that some kids used to come to my school three or 
four grade levels behind and I wouldn't be able to do what I 
was able to do without having more time.
    About 4 years ago I walked into a building called the 
Edwards Middle School. The building at the time had the worst 
test scores in the city of Boston. The enrollment was 
dwindling. Two students had been shot and killed the year 
before. Not at the school but in their neighborhoods. And so 
for better or worse the school had become a place where it got 
a reputation where kids went to die.
    When I went there, it was very apparent to me that they 
were going to close the school. We're going through some budget 
challenges in Boston as I'm sure many of you are. And we needed 
to get change quickly.
    And the one benefit we had was the year before I got there, 
they had planned for expanded learning time, a longer school 
day. Whereas my kids usually would go from 7:00 in the morning 
to 1:30--and 1:30 is early to be putting middle school kids out 
on the street--we now go from 7:00 in the morning until 4:30. 
And we were able to use this extra time to get quality results 
for kids.
    Now, what does that look like? It was really a two-pronged 
approach. The first is we kind of cut the time in half and did 
a targeted academic remediation period, where we put kids where 
they needed to be. A kid that was strong in math but weak in 
English got extra English help.
    A kid that was great in math and great in English but 
struggling in science got extra science help, because in 8th 
grade that's the hardest test to pass in Massachusetts, the 8th 
grade science test. So we started being really strategic about 
where we placed kids, using that extra time with our teachers.
    The other thing we did is we tried to bring in high-quality 
programs for kids. We talked a lot about these achievement 
gaps. I would say at least with my children, we had an 
opportunity gap. Where my kids would go home at 1:30--and they 
weren't being driven to ballet class and they weren't able to 
play on the football team, now we were able to bring these 
resources to our school.
    And so the Boston Ballet worked with my students. We had 
the only middle school football team in the city and we played 
all the rich towns outside of it. We got these great 
opportunities which to me were just as important to what we 
were doing as the academic piece.
    To do all this longer school day, we worked with our 
teachers. Teachers voluntarily stayed and got paid at the 
contractually hourly rate. But even with them staying, I asked 
them all to stay for one additional hour, we still needed a 
second shift of workers.
    So we formed these great partnerships with Citizen Schools, 
Boston Ballet that I alluded to earlier, Medicine Wheel, Burt 
Street, all these after school alliances, where we kind of made 
it a seamless program. And we were able to get results for 
kids.
    I think the one thing I really want to say before I leave 
you is having longer time I think is necessary but not 
sufficient. You have to have a plan. Otherwise it's just 
glorified baby-sitting.
    We had a plan for how we were going to do it with kids. The 
results were fairly staggering and really are a testament to my 
faculty, which includes my outside partners. Whereas we used to 
be the worst performing school in Boston in the middle schools, 
we're now the best.
    But we weren't satisfied with that. Right now at the 
Edwards Middle School our 8th graders lead, beating your 
average suburban kid in mathematics and tied in English. This 
despite the fact that over 90 percent of my kids live in 
poverty, a third of my kids are second language learners, and 
25 percent of them are special needs students.
    What we realized is that, if we had this gift of time and 
we had a plan, we could get things done for kids. We were able 
to close achievement gaps that have been bothering us as a 
district for a long time.
    A few things I'd like to leave you with is I think the 
traditional school day started as this agrarian model so that 
the kids could go home and work in the fields on our farms. And 
at least in Boston we don't have a lot of that anymore.
    And I think we need to rethink how we use time. And there's 
a variety of ways to do that. Expanded learning time is one 
way. We do something called acceleration academies over 
vacations which targets specific kids with specific teachers. 
That's another way.
    With the technology coming out, there's all different ways 
to think about how to best educate our kids.
    Thank you for letting me come today to speak on just one of 
them.
    Thank you.
    [The prepared statement of Mr. Riley follows:]

                 Prepared Statement of Jeffrey C. Riley

                   EXPANDED LEARNING TIME INITIATIVE

    Schools across the country are looking at how to use time 
differently. Charter schools have shown that adding time is a critical 
component to raising student achievement. Some school districts are 
looking at re-organizing time in response to financial pressures. 
Others are adopting ``virtual'' school models, using technology as a 
way to change how instruction is delivered. All of these approaches 
speak to a need to rethink the traditional school model.
    In Massachusetts, the State has launched the Expanded Learning Time 
(ELT) Initiative where over 20 schools are provided an additional 300 
hours of student learning time. Securing State funding at a rate of 
$1,300 per student, the Initiative has proven to be a cost effective 
model, when compared to the relative average per pupil cost. Early 
results appear promising as students are exposed to additional academic 
and extracurricular hours.
    The Edwards Middle School is one example of an ELT school that has 
flourished using the longer school day. Just a few years ago, the 
school was on the brink of closure with incredibly poor academic 
outcomes and a dwindling enrollment. Within 3 years of adopting ELT, 
the test scores are among the highest in the district and the Edwards 
is the most highly chosen school in Boston. Perhaps most impressive is 
that the achievement gap at the school has been virtually eliminated.
    To say that schools will succeed simply by adding more hours to the 
school day is not realistic. The need to plan how best to use that time 
is crucial, as are a host of other conditions. In the end, adding more 
time can be seen as one effective strategy for increasing educational 
outcomes for our children.

    Senator Bingaman. Thank you very much, appreciate it.
    Superintendent Brooks, thank you for being here and taking 
time to give us your thoughts.

  STATEMENT OF WINSTON C. BROOKS, SUPERINTENDENT, ALBUQUERQUE 
                PUBLIC SCHOOLS, ALBUQUERQUE, NM

    Mr. Brooks. Well, thank you, Senator. It's my honor to sit 
next to Jeff. I'm very good friends with his Superintendent in 
Boston. She's a great lady and has done great things in Boston. 
So it's great to talk with Jeff.
    Good morning, Senator. Thank you for being here. And I hope 
we can make you feel at home here at APS headquarters.
    Senator Bingaman. Thank you for letting us use this 
wonderful facility. This is great, it really is.
    Mr. Brooks. Thank you. I do have at least three school 
board members in the audience that I'd like to introduce. Mr. 
Lorenzo Garcia, Mr. David Peercy, and Mr. David Robbins are all 
members of our school board here.
    Senator Bingaman. Terrific.
    Mr. Brooks. I learned long ago, Senator, that you always 
have to introduce the people who feed you. So make sure that 
they're recognized.
    Senator Bingaman. That's right. I remember Governor King, 
one of the secrets of his success was whenever he would attend 
a meeting, he would say let me start by introducing my board of 
directors. And then he would introduce all the State 
legislators in the audience. So that's some insight.
    Mr. Brooks. Well, it's my honor to be here this morning to 
testify before you to discuss innovative approaches to school 
time. It was interesting to hear Jeff talk. My presentation is 
going to be a bit different in that I think more and longer 
certainly may have merits.
    But if you just continue to provide what you've been 
providing during the regular day, it may not be as efficient. 
So what we really tried to do here in Albuquerque--rather than 
talk about longer and more, I'd like to talk about being more 
flexible, flexibility.
    Just for the record, APS is the largest school district in 
the State. We have more than 90,000 students and we're a 
growing school district. In fact, we think we may exceed the 1 
percent mark to receive additional funding in the State this 
year.
    Actually I think Albuquerque is a bit unique in that it's 
the only urban district and the only State that I know of that 
the district actually serves one-third of all the kids in the 
State. I think that speaks volumes. So when APS does well, the 
State does well; when APS doesn't do so well, the State doesn't 
do too well either.
    Being a large urban district, meeting the challenges of 
providing an education to such a diverse population is a real 
challenge. One of those challenges is high school students who 
may not be able to attend school during the regular school day.
    For many of us, I can certainly speak for myself, the 8:00 
to 3:00 scenario worked just fine. I could get up, go to school 
at 8:00, come home at 3:00 or go to sports practice or 
whatever, and it worked just fine. However, I would contend 
that today that's not so much the case.
    Last school year we implemented a program that we did call 
the extended day program. But I always like to say extended, 
more flexible day program, where we took resources that were 
allocated at our evening high school and we developed a 
program.
    Evening high school was actually housed at Albuquerque 
High. It was the only place really in Albuquerque that if kids 
wanted to go to school in the evening, they would have to go to 
Albuquerque High. So kids from Rio Grande would have to find 
their way to Albuquerque High, kids at La Cueva, same kind of 
thing.
    I would suggest that most high school kids I know don't 
like to get outside their comfort zone. And probably going to 
Albuquerque High, if you're a La Cueva Bear, isn't the first 
thing that you want to do.
    So what we did is we took those resources that we had at 
evening high school and we actually distributed them equitably 
across the district so that now all 13 conference high schools 
have an evening program. We believe that that's increased--
well, in fact, we know it's increased the opportunities to 
students who traditionally would have to go to evening high at 
Albuquerque High in order to get that service.
    The extended flexible day program allows students to 
recover credits that they are missing or to make up a class in 
which they failed or they could use it to actually expedite 
their high school education and actually graduate early if 
they'd like. I know some students who have done that.
    The schools identify who the students are who need to 
remediate a course. In fact, when students come to counselors 
at any of our high schools and say, I'm a new mom, I'm a new 
dad, my parents are ill, or whatever their crisis is in life, I 
think I'm going to quit school because I just can't get there 
at 8:00 in the morning, I just can't stay until 3:00 in the 
afternoon.
    Our counselors are being trained to say, well, what about 
coming to school at 2:30, what about coming to school at 3:00. 
What if we work with you to help provide daycare while you come 
back to school. And we believe, as you will notice in the 
numbers and the documentation we have provided to you, it's had 
a very positive impact.
    High school counselors are vital in helping us identify who 
those students are. During the first semester, I'm happy to say 
that we exceeded our expectations. We had 700 students who 
actually enrolled in the extended/flexible school day. And 
then, even better, at semester we saw a dramatic increase, the 
enrollment went up to 1,700.
    These courses are offered from 2:45 to 5:00. We did it once 
again with existing resources. With new resources we can 
actually--I would love to see these programs go until 7:00, 
8:00, 9:00 in the evening. I think we could serve a lot more 
kids.
    The real good news is that we have had more than 2,500 
students unduplicated, so these are at least one student taking 
at least one course, enrolled in these programs. We are working 
on improving the number of students who are completing the 
courses, because at this point it appears that it takes them 
longer to go through these courses. But that may make some 
sense than it would if you were just a traditional student 
doing seat time in one of our high schools.
    However, the number of students who are dropping out of 
these courses is very minimal. This past year we had 296 
seniors complete extended day courses to stay in line to 
graduate, which directly impacted our graduation rate.
    Once again I would like to say that I think it's more than 
just more and longer. We need to really provide and try to meet 
the needs of our kids, the kids that we're serving today. And 
we're not serving the same kids that we served, Senator, when I 
went to school back in the seventies. So with that I would be 
happy to listen to my colleagues and engage in conversation.
    [The prepared statement of Mr. Brooks follows:]
                                                   August 20, 2010.
Hon. Jeff Bingaman,
Hart Senate Office Building,
Washington, DC 20510-3102.

    Dear Senator Bingaman: It is my honor to testify before the Senate 
Health, Education, Labor, and Pensions Committee hearing on 
``Innovative Approaches to School Time.'' As you are aware, Albuquerque 
Public Schools is the largest school district in the State of New 
Mexico with more than 90,000 students attending school each day. As the 
largest school district in the urban area of Albuquerque and 
surrounding communities, we face challenges every day with meeting 
specific educational goals of students during the traditional school 
day. A typical high school student will attend school from 7:30 a.m. to 
2:30 p.m. each day. However, this schedule poses particular problems 
for some students who are working to help or fully support a family or 
who face a multitude of other issues in their life.
    During the 2009-10 school year, the district formed the ``Extended 
Day Program'' with no new funds. This program took existing resources 
that were allocated to Evening High School and diverted them to this 
program. This also focused resources in alignment with the district's 
number one goal of improving student achievement and increasing 
graduation rates.
    Each comprehensive high school received a teacher allocation of two 
additional class periods to implement the program. This made the 
program available at each high school in our community, which directly 
increased participation. Students who traditionally would have attended 
Evening High School, faced transportation and other challenges of 
getting to the school which was located at Albuquerque High School. 
Albuquerque High School is located in the middle of the city, more than 
a dozen miles away from most other high schools.
    The focus of the ``Extended Day Program'' is on students who need 
to recover credits that they are missing or for students who have 
failed a course that needs to be made up to stay ``on track'' towards 
graduation. In addition, schools have been able to identify students 
who need to remediate a course for next fall and will begin right as 
school begins for the 2010-11 school year. High school counselors have 
played a pivotal role in the program because they have identified 
students that need to be placed in the program.
    After the first semester the number of students who participated in 
the program, dramatically increased. During the first semester there 
were 700 students enrolled in the program and during the second 
semester 1,700 students were enrolled. The courses were offered from 
2:45 p.m. to 5 p.m. and were a hybrid of direct, face-to-face 
instruction and on-line instruction. The individual comprehensive high 
schools chose the offered courses based on the courses at their school 
that had the greatest number of failures.
    Since this was a pilot program, the Albuquerque Public Schools 
evaluated the data from the ``Extended Day Program.'' The findings show 
that there were 2,523 non-duplicated students participating in the 
program with slightly more males taking courses than females. Hispanic 
students make up 69 percent of the students participating in the 
program. The outcomes need to improve with only 26 percent of students 
completing courses, 59 percent still enrolled in courses and only 15 
percent dropped the course. Enclosed with this document you will find a 
breakdown by school, gender, ethnicity, and letter grade received.
    Students in this program have been able to provide testimony about 
the impact APS' extended day had on their high school success. Young 
men who found themselves engaged in risk behaviors and leaving school 
found the extended day an opportunity to ``catch up'' to their peers 
and graduate with them. Students who had gotten off-track for high 
school success due to failing core requirements found an appealing way 
to recover those credits. These students took challenging courses and 
moved at their own pace through the extended day program, some taking 
more than 2-3 courses to finish.
    There is no better measure of a program's success for high school 
students than graduation. This past year, 296 seniors completed 
extended day courses that allowed them to graduate either with their 
peers or within the allowable 5-year time period for on-time 
graduation.
            Sincerely,
                                         Winston C. Brooks,
                                                    Superintendent.

    Senator Bingaman. Thank you very much.
    Ms. Paisano-Trujillo.

STATEMENT OF RENEE PAISANO-TRUJILLO, EXECUTIVE DIRECTOR, ELEV8 
                  NEW MEXICO, ALBUQUERQUE, NM

    Ms. Paisano-Trujillo. Yes. Thank you, Senator, for allowing 
me to testify today. As a long-time after school advocate, I 
feel that an equitable education has to include extended 
learning opportunities. And in that we can prepare our students 
for jobs in the future and jobs we can't even yet imagine.
    I really also believe that one of the things we need to do 
together is to create cost efficiencies so we avoid cutting 
essential programs, programs that help young people not only 
create, innovate, but defend their own ideas.
    Elev8 New Mexico is advancing an extended learning 
initiative, it's called Full-Service Community Schools. And 
we're focused on the middle schools, where community-based 
organizations, many of which are in the room with us today, 
work alongside school staff and governmental officials and 
volunteers to ensure that comprehensive coordinated services 
are available to middle school students.
    Services include extended learning. They also include 
comprehensive school-based health. They include family supports 
and family engagement, something that's really important to all 
of us right now.
    Exposing young people to a wide range of careers, similar 
to those advanced by Citizen Schools and by MicroSociety, 
increases their social capital. Consider how afterschool and 
extended learning can develop multiple intelligences, something 
that I am very, very passionate about, to help them compete in 
the 21st century.
    If you could imagine a robotics program that teaches 
science, technology, engineering, and math; an afterschool 
program that reinforces math and literacy; a theater program 
that allows students to build confidence and self-expression; 
or cultural arts, which is in one of our reservation programs 
that allows students to connect to their native language and 
traditions.
    To achieve this we need to expose young people to career 
professionals that look like them and that have backgrounds 
similar to their own context and to careers that seem out of 
reach to them. I really believe that our young people need to 
be prepared for jobs of the future and I don't think they are 
right now.
    National research, we all know what it says. It says that 
high-quality after school programs can support standardized 
gains, test scores, school attendance, and bonding to school to 
keep them on the right path.
    But what we're learning through Full-Service Community 
Schools is that through inquiry and project-based learning that 
connects to other kinds of social supports, you can decrease 
arrests from 60 to 1. It happened in one of our schools. So 
school climate and school safety can be addressed through these 
kinds of supports.
    You can increase math learning proficiency--from 2008 to 
2009 in one of our reservation schools this happened. And in 
that same school, a 214 percent increase in proficiency from 
7th to 8th grade was realized.
    We are also seeing decreases in disciplinary referrals 
across all of our sites because of this comprehensive support. 
And we also now have a recognition that our school-based health 
centers are among the top in the State because they are meeting 
necessary productivity standards, the first time ever that we 
have something like this for our school-based health centers.
    Schools can't do this alone and I believe nor should after 
school and extended learning. We need to make sure that school-
based health centers are kept in place because they keep kids 
in school and they influence academic performance.
    Youth development practices help motivate learning. We need 
to remember that they are incorporated in the schools and we 
need to support that. Community involvement is crucial but 
needs a support and a staff of coordination and engagement 
structure.
    The tipping point, however, for us anyway is that it occur 
through an integrative process, that they be seamlessly 
integrated into schools, and that we have a structure to 
support them. Without integration you get more of the same, 
silent services.
    As this community and Congress consider extended learning 
time with the reauthorization of the SCA, I believe we must 
maintain separate funding streams for Full-Service Community 
Schools in 21st Century Community Learning Centers.
    I also think we need to increase authorized funding and 
appropriation for 21st CCLC, maintaining funds solely for 
extended learning and after school. And I also believe that 
after school needs to have evaluation funded. We don't want 
loosely delivered afterschool programs and extended learning, 
we want them to be evaluated.
    In conclusion I want to tell you about Peter. Peter is now 
in the 9th grade. At the beginning of his 8th grade year, Peter 
decided to run for student council treasurer. What complicated 
his desire was the fact that he didn't know anything about 
finances. On top of that, he was somewhat withdrawn, he wasn't 
really an engaged student.
    When he entered MicroSociety, a nationally recognized 
learning--extended learning program supported by Elev8, his 
confusion ended. Beyond project based learning and fleeting 
simulations, MicroSociety makes a connection to the actual 
world.
    Peter learned about the economy, citizenship, and 
government. He also learned about savings, investing, and how 
the Federal Reserve Bank operates. He was elected student 
council treasurer. And one of his teachers credits MicroSociety 
and Elev8 for his new-found confidence and the fact that he can 
now navigate 9th grade.
    Senator Bingaman and members of the committee, I want to 
say that we can't do it alone and that Full-Service Community 
Schools cannot be underestimated or understated. Though it 
takes a community, I'd like to acknowledge the principals and 
superintendents who are advancing Full-Service Community 
Schools.
    Two of them are with us. Superintendent Winston Brooks who 
has full-service in his schools, and also Laguna Department of 
Education Superintendent Dr. Fairbanks. Without them we could 
not do this work.
    I also want to say that together let's support the high 
cost of failed futures. We know what that cost is. And I could 
run down those figures with you. I think most of us know them.
    But let's invest instead. Invest in high quality education 
that includes after school and extended learning.
    Thank you, Senator.
    [The prepared statement of Ms. Paisano-Trujillo follows:]

              Prepared Statement of Renee Paisano-Trujillo

    Senator Bingaman and members of the committee, I want to sincerely 
thank you for the invitation to testify today. The focus of this 
hearing addresses one of the most important issues affecting our 
communities locally and nationally. In particular, I believe we must 
address how we best serve our students and provide them with the most 
well-rounded and equitable education possible in a 21st century world. 
It is my sincere belief that our youngest citizens are not prepared for 
today's jobs and the jobs of the future.

                      BEYOND THE ACADEMIC OUTCOMES

    In order to be successful in creating the most desirable outcomes, 
both economic and otherwise, we must re-evaluate and reform our 
approach to education in New Mexico and elsewhere. We must innovate in 
a way that involves broad community and consumers: the students and 
their families. Essentially what we are seeking is an ongoing process 
in which we redirect highly ingrained systems of education and close 
numerous and nearly immeasurable gaps. It will take long-term solutions 
and a plan to sustain New Mexico's educational system, its economy, its 
quality of life and, quite frankly, its international stature well into 
the future. For Elev8 New Mexico, it all goes hand-in-hand, and it all 
begins with providing Full-Service Community Schools (FSCS). In a Full-
Service Community School services are intentionally bundled. Those 
services include after-school learning and enrichment, ``whole-child'' 
and family health, mental health and dental care at school, and family 
supports such as financial literacy and access to available and much 
needed social services. It is the intent of Full-Service Community 
Schools to bring together the best educational and youth development 
practices in partnership with local educational agencies and community-
based organizations. A key area of focus within a full-service 
community is family engagement where parents and whole families become 
sources of support not just for their students, but also for their 
schools. Full-Service Community Schools are about a full cycle of 
support and accountability involving all that benefit and integrating 
all elements of the structure.
    Aside from the strict academic outcomes that seem to be the 
emphasis of too much of the current discourse on education, the 
development of non-academic skills and competencies are necessary if we 
truly are going to prepare young people for the challenges of high 
school, the rigors of higher education and an ever changing 21st 
century workplace and global economy. Non-cognitive factors such as 
enhanced emotional and social skills actually help improve cognitive 
functions and are a better indicator of success in school, the 
workplace, and life. There is a strong cause and effect relationship 
between non-cognitive factors (social intelligence, emotional 
intelligence, i.e., multiple intelligences) and the development of 
cognitive skills particularly during the middle school years.

                         AFTERSCHOOL ENRICHMENT

    One important component of my testimony before this committee is to 
discuss the value of afterschool programs but within a extended 
learning frame, which is what Elev8 New Mexico is advancing. 
Afterschool can be, in fact, a perfect laboratory to develop the 
social, emotional, and cognitive intelligences to best prepare students 
for postsecondary and career success. Afterschool can also be a place 
to develop critical thinkers who create and innovate, and who are 
equipped to articulate and defend their own ideas, which will ready 
students for careers that have not yet been defined. Developing these 
social/emotional and cognitive intelligences as a whole is particularly 
important for children of color and students in distressed communities. 
U.S. Census Data demonstrates that minorities are highly-concentrated 
in low-income, low-wage jobs with very little room for economic 
mobility. Without intervention, this basically means that young people 
will draw on the networks and opportunities that are available to them 
(e.g. the networks established by their parents and peers) which will 
almost certainly continue to perpetuate a cycle of poverty and low wage 
jobs. Afterschool provides the perfect opportunity to increase the 
social capital of young people by exposing them to a wide range of 
careers and professions through career exploration activities, 
internships, service learning and apprenticeships. When young people, 
especially those of color, are exposed to career professionals who come 
from similar backgrounds and look like them, careers that may have been 
perceived as ``out of reach'' suddenly seem more attainable.
    In rural communities, career exploration activities are especially 
meaningful. Growing up on a rural reservation west of Albuquerque, my 
exposure to industries that are common in larger urban areas was 
minimal. Career exploration, service learning and apprenticeships in 
the afterschool space allow rural youth to aspire to become engineers, 
doctors, filmmakers and entrepreneurs by making these industries 
accessible and attainable. These activities also illuminate the 
pathways to careers by clearly outlining educational requirements, core 
competencies, the 21st century skills needed, and available 
opportunities in emerging and existing industries.
    Afterschool can also provide dynamic learning spaces for young 
people to cultivate their skills. Think about the traditional 
classroom. There is typically a teacher standing in front of a class, 
and the exchange of information is essentially one-way. In densely 
populated urban schools, student to teacher ratios can rise to 30:1 or 
greater. What this means is that academic achievement can become an 
individualized pursuit where young people have little opportunity to 
develop teamwork, interpersonal communication skills, and other social 
skills that can be cultivated through group activity. Afterschool helps 
fill this void by promoting project and inquiry-based team learning 
where young people can develop critical thinking, problem solving, 
negotiation, and intercultural communication skills that are sought 
after in today's 21st century workplace.
    In properly and aptly preparing our next generation of leaders, we 
must not forget the important role afterschool enrichment activities 
play in a child's life. It may be a robotics program that teaches 
science, technology, engineering and math (STEM); an afterschool music 
program that reinforces math and literacy skills; a theatre program 
that allows students to build confidence and self-expression; or a 
cultural club that allows students to connect to their native language 
and traditions. Afterschool enrichment activities such as these cannot 
be dismissed as ``fluff.'' They are essential in building social, 
emotional and academic competencies that are needed in school and life. 
What is important is that they be of the highest quality.
    In a study of leaders from the public, private and nonprofit 
sectors, one of the most common variables was that the majority of 
leaders had participated in some type of music program in their 
formative years. Communities and leaders believe in the enriching power 
of arts and music education--be they art, music or any number of other 
enrichment programs--funded by local and national non-profit groups 
over the last several decades underscoring the correlation between 
academics and the arts and encouraging communities and individuals to 
commit as seriously to these enrichments as they do math, reading and 
science.
    There also exists strong evidence that enrichment activities make a 
difference in overall student achievement; not just in core subjects, 
but in every area of academia. A study of 25,000 students from the U.S. 
Department of Education NELS Database showed that students with high-
levels of arts participation outperformed students who were ``arts-
poor''. The study also showed that students from low-socioeconomic 
backgrounds benefited the most from enrichment activities.\1\ We also 
know that sports activities in the afterschool space can be a vehicle 
to reduce health risks, such as obesity and diabetes.
---------------------------------------------------------------------------
    \1\ Involvement in the Arts and Success in Secondary School. James 
S. Cattaral, 1998. Taken from Champions of Change: The Impart of the 
Arts on Learning. The Arts Education Partnership.
---------------------------------------------------------------------------
       EXTENDED LEARNING TIME AND INCREASED ACADEMIC INSTRUCTION

    Another touchstone of the testimony I submit before you here today 
is what is known simply as Extended Learning Time, or ELT. As you will 
hear in other testimony throughout the day, there is growing momentum 
for extending the school day either by extending the hours for school 
teachers or by engaging nonprofit practitioners in the extended day 
space. Often referred to also as Expanded Learning Time, this strategy 
provides the additional time necessary to take students on deeper, more 
thorough expeditions of core subject areas, allowing full-time and 
second-shift educators a chance to lengthen, reinforce, and thus 
strengthen, lessons in core academic subjects.
    As Eric Schwarz from Citizen Schools so eloquently stated in a memo 
to Education Secretary Arne Duncan:

          ``Done right, Expanded Learning Time can deliver significant 
        gains in academic achievement and promote hands-on learning, 
        artistic enrichment, college preparation and career 
        exploration. Done right, ELT can enlist a new workforce of 
        ``second-shift'' educators who can bring learning to life, 
        disrupt business-as-usual staffing and pedagogy, and complement 
        the dedicated service of America's classroom teachers.''

    ELT provides the intensive academic support that some students need 
to improve academically. While most ELT programs incorporate enrichment 
activities, many provide minimal time for these types of activities in 
the extended day.
    I view afterschool enrichment activities and ELT on a continuum. 
Jeff Riley from the Boston Public Schools refers to this as the ``layer 
cake approach.'' On top of the regular school day, I view enrichment 
activities as a way to increase youth connections to their school by 
providing structured and semi-structured programming in areas like 
sports, music, drama, art and clubs. Enrichment is also a way to 
increase student attendance, which is a short-term predictor to long-
term academic success.
    An additional layer to the regular school day, is the ELT programs 
that are heavily focused on academic instruction in the extended day. 
ELT can help students advance academically and achieve proficiency in 
core subject areas. ELT can also have a significant impact on students 
with remedial needs or students that need increased support with their 
academics.
    It is critical to understand that extended learning and enrichment 
are student-specific and one does not necessarily imitate the other. 
ELT and Enrichment need to be integrated; a bridge must be constructed 
to ensure balanced supports to learning and innovation. A successful 
bridge strategy has several core components to ensure successful 
integration:

    <bullet> Shared professional development opportunities for teachers 
and nonprofit practitioners. Cross-walking approaches and pedagogy can 
help foster innovation in the classroom and in the extended day.
    <bullet> Services must support school goals. School goals provide 
the necessary anchor to ensure that work in the extended day is 
intentional and promotes student and family success.
    <bullet> Engagement of talented ``Second Shift Educators'' and 
strong community/nonprofit partners to complement traditional 
instruction. Involving strong nonprofit partners can provide fresh 
perspectives and lessen burnout of school teachers.
    <bullet> Integrate partners into existing school structures. 
Integrating partner organizations into school structures, such as 
instructional council and curriculum committees reinforces classroom 
connections in the extended day space. It also provides a bridge for 
school staff to engage in activities that are happening afterschool.
    <bullet> Afterschool activities must be able to reach all students. 
Some students may benefit most from increased academic instruction, 
while many others would benefit most from enrichment activities. 
Schools need to offer both enrichment and EDL activities to increase 
school connections for students.
    And that speaks to the very heart of my testimony here today, 
Senator Bingaman--our schools need both.
    What I am proposing is a Full-Service Community School approach 
that combines the rigorous academics of a quality school with a wide 
range of services and supports to promote children's learning and 
development. A Full-Service Community School unites the most important 
influences in children's lives--schools, families, and communities--to 
create a web of support that nurtures their development toward 
productive adulthood.
    Full-Service Community Schools build their vision from a 
comprehensive understanding of the developmental needs of children and 
youth, and seek to address the major developmental domains (cognitive, 
social, emotional, physical, moral) in ways that promote student 
success. A Full-Service Community School starts with a systematic 
assessment of needs--of each target population, school climate and 
community context. This assessment grounds decisions about resource 
allocation and partnership recruitment. Partner-provided and school-
provided programs jointly meet school district and community goals.
    There are several well-known Full-Service Community School models 
that have proven to be successful including:

    <bullet> Elev8
    <bullet> Beacons
    <bullet> Children's Aid Society Community Schools
    <bullet> Communities in Schools
    <bullet> Healthy Start
    <bullet> Polk Brothers Full-Service Schools

    Students in Full-Service Community Schools are positively impacted:

    <bullet> Research shows that middle school students who regularly 
attended high-quality afterschool programs demonstrated significant 
gains in standardized test scores and self-reported better work habits 
than their peers who did not participate in afterschool programs.\2\
---------------------------------------------------------------------------
    \2\ Outcomes Linked to High-Quality Afterschool Programs: 
Longitudinal Findings from the Study of Promising Afterschool Programs. 
Deboral Lowe Vandell, Elizabeth Reisner and Kim Pierce, 2007.
---------------------------------------------------------------------------
    <bullet> Regular participation in afterschool programs has also 
proven to reduce risky behaviors. For example, middle school students 
who regularly participated in afterschool programs reported less use of 
drugs and alcohol than students that did not participate in 
afterschool.\3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    <bullet> Afterschool is also proven to increase youths' self-
perceptions, bonding to school, and school attendance.\4\ \5\
---------------------------------------------------------------------------
    \4\ The Impact of Afterschool Programs that Promote Personal and 
Social Skills. Joseph A. Durlak and Roger P. Weissberg, 2007.
    \5\ The Afterschool Alliance. Afterschool Programs: Making a 
Difference. Retrieved on August 11, 2010 from http://
www.afterschoolalliance.org/after_out.cfm.
---------------------------------------------------------------------------
    <bullet> In rural, native communities where there are high-levels 
of participation in after school, we have seen significant increases in 
math proficiency. Laguna Middle School, on a rural reservation west of 
Albuquerque, was able to achieve a 45 percent increase in math 
proficiency in 1 year. For 7th graders, math proficiency doubled from 
2008 to 2009.
    <bullet> We know that Full-Service Community Schools can have a 
positive impact on school climate and school safety. At Wilson Middle 
School in Albuquerque, youth arrests in the school and surrounding 
community went from 60 to 1 in 1 year.

                  TURNAROUND OF LOW-PERFORMING SCHOOLS

    The sole responsibility of turning around schools and increasing 
student achievement should not be placed exclusively on the schools. It 
is my belief that turnaround by definition requires strong partnerships 
between schools, the nonprofit community and governmental agencies to 
achieve the results we all desire. In fact, as you heard in the Edwards 
Case Study, school turnaround was a confluence of strong school 
leadership, expanded learning time and more partners to address the 
needs of students. In New Mexico, I have found that more partners in 
the school space is merely a starting point. The tipping point for 
success in the Full-Service Community School model occurs when the 
partners and the services they provide are integrated within the school 
structure. Without the integration, you get more of the same siloed 
work that has minimal impact in turning a school around. Integration 
requires a strong commitment from all parties and a belief that through 
shared responsibility we can have a greater impact. As I stated 
earlier: The Full-Service Community School structure is underpinned by 
accountability.
    Through Elev8 NM, we have established strong relationships with 
State-level partners including the New Mexico Public Education 
Department, New Mexico Department of Health, New Mexico Children, Youth 
and Families and the New Mexico Children's Cabinet. These partnerships 
have allowed us to achieve greater alignment around:

    <bullet> Core mission and vision for serving our State's youth. We 
accomplish this, in part, by aligning to our Children's Cabinet 5 
Outcomes.
    <bullet> Investments for children. Ensuring that we are maximizing 
investments from private, public and philanthropic institutions for the 
benefit of youth and families. It's not always about securing new 
resources. Sometimes it's about realigning existing resources to best 
support our target population.
    <bullet> Engaging our public partners in the planning, 
implementation and assessment of Elev8 programming. Once again, it's 
about integration. Our public partners are involved in our Advisory 
Council, assessment and evaluation committee, and other leadership 
structures. Our public partners work with us to ensure rigor in both 
our assessment and our approach.

    It is important to know the benefits of investing in extended 
learning. An independent cost/benefits evaluation showed that The 
Quantum Opportunities after-school program saved taxpayers and crime 
victims an average of $16,428 in crime costs for every youth served. 
This figure does not include decreased welfare expenditures and 
increased tax dollars from higher earnings. The impact of adequate 
funding for extended learning leads to a simple conclusion: failing to 
invest in quality after-school programs squanders billions of dollars.
ensuring student success: extended learning in a full-service community 

                            SCHOOL APPROACH

    As Congress considers extended learning time in the reauthorization 
of ESEA and other funded programs we believe we must:

    <bullet> Increase flexibility of 21st Century Community Learning 
Center (and SES) allowable activities, including a community schools 
approach to ensure that the interests and intelligences of the students 
are part of the process toward student success. An integrative approach 
that ensures that youth development, mental and physical health, 
extended learning, and family supports are appropriately incorporated 
into the school space is essential.
    <bullet> Resource the role of intermediary organizations as a 
support structure that eliminates burden on school leadership and staff 
and ensure the successful implementation of extended learning with 
other school supports such as health, family services and engagement, 
extracurricular activities, etc. Our intermediary operates to support 
extended learning providers and school systems by providing training, 
quality assurance, sustainability, convening, neutral facilitation, 
planning support, and other services.
    <bullet> Maintain 21st Century Community Learning Centers Program's 
focus on ensuring that kids have safe, supervised learning environments 
beyond the traditional school day; continue to balance academic 
programming with enrichment activities; and add physical activity, 
health and nutrition education as allowable activities.
    <bullet> Increase authorized funding and annual appropriation for 
the 21st Century Community Learning Centers Program and we must assure 
that 21st CCLC funds be maintained solely for extended learning use and 
not be re-directed for use during the school day. Currently many more 
children and youth need afterschool: more than 15 million children are 
unsupervised and at risk after the school day ends. Increased funding 
authorization levels are critical if allowable activities and focus of 
program are broadened. Further, we must align Federal funding to ensure 
that qualified citizen teachers/community based providers support 
extended learning in full partnership with classroom teachers and 
school leadership.
    <bullet> Fund an afterschool infrastructure that ensures mixed 
method evaluation and quality improvement strategies that connect to 
State educational standards. For New Mexico, we propose that all 
afterschool programs be systematically measured for quality and 
continuous improvement. Measures of student success must show growth 
and improvement over time and student achievement and success to 
include preliminary indicators such as improved school day attendance, 
better classroom grades, positive attitude towards school, daily 
program attendance, on time advancement to the next grade level and on 
a pathway to high school graduation and career- and college-readiness. 
Data collection should include the above indicators.
    <bullet> Continue to support service and volunteerism programs like 
AmeriCorps and AmeriCorps VISTA to ensure low-cost, no cost support to 
afterschool programs, thereby ensuring a more expansive citizen support 
base that increases educational opportunity and economic mobility for 
whole communities.

                               CONCLUSION

    In New Mexico, Elev8's Full-Service Community Schools are a bridge 
that works to increase student success. At Gadsden Middle School, Elev8 
is helping students like Peter succeed:

          During his 2 years at Gadsden Middle School in Anthony, Peter 
        was known as a very quiet and reserved student. Early in his 
        8th grade year, Peter shocked his friends by announcing that he 
        wanted to be the Treasurer of Student Council. In his interview 
        with the Student Council Selection Committee, Peter shared his 
        new love of finances. A year earlier, Peter had been interested 
        in, but very confused about banking and investments and how 
        finances worked in general. That was before he became an active 
        participant in the MicroSociety extended learning program. 
        Beyond project based learning or fleeting simulations, 
        MicroSociety makes a connection to the real world come alive 
        for students. MicroSociety teaches about economy, citizenship 
        and government, humanities and arts, business, technology and 
        more. A strand like economy and its sub strands, like banking, 
        consist of core subjects, such as, math, and encompass all 
        aspects found within an actual society. Peter took an interest 
        in the banking industry, in Gadsden Middle School's 
        MicroSociety. He told the interview committee how much he had 
        learned about deposits, credits, saving and investing. He 
        described how the Federal Reserve Bank operated, not an easy 
        feat even for the majority of adults. He said he knew that 
        finances were complicated but said he was prepared to handle 
        the enormous responsibility. He was elected Treasurer, served 
        his term and has since graduated to Gadsden High School. One of 
        his teachers, Mrs. Corona, said that MicroSociety is what 
        helped Peter to become a confident leader who now really 
        believes in himself as he navigates high school.

    This is but one of many amazing stories of success occurring across 
the five Elev8 New Mexico sites, attributable directly to Full-Service 
Community Schools in action.
    We saw a decrease in student arrests from 60 to 1 at an urban 
school site. We saw a decrease in teen pregnancies to zero for the last 
2 years in a rural border school. We saw a leap in math proficiency by 
45 percent in a reservation school. At the systemic level we have led 
collaborative processes for ensuring the quality of extended learning 
and school based health. Additionally, we have worked collaboratively 
to increase the number of children receiving free nutritious meals in 
the State.
    These impacts do not occur in a silo, but rather as part of a Full-
Service Community School approach that brings together educators, 
students, administrators, business and community leaders, families and 
a vast network of caregivers and researchers--all of whom contribute 
experience and knowledge to a common outcome. Though cliche, it is true 
through our experience that to tackle 21st century challenges we must 
address the whole challenge facing our students today.
    Education that supports economic mobility for all must include 
health, wellbeing, and sociological components so that today's students 
are ready for the jobs the 21st century will bring. That is especially 
true in a State like New Mexico, where cutting-edge industry and 
innovative technology are already playing an enormous role in the 
future of our economy. Beyond future employment and higher education, 
today's students are faced with more life challenges than any 
generation that has come before.
    The Full-Service Community School approach becomes part of the 
answer in addressing the multi-decade decline in meeting important 
student and youth outcomes. It does this through a well integrated 
system of whole support to ensure success for all and not just some. 
Elev8 wants to be part of the forward educational thinking and system-
wide reform that makes certain all citizens are educated, working, and 
contributing to the whole. I stand proud and hopeful before you here 
today, Senator Bingaman, distinguished committee members, and esteemed 
panelists in saying that the work has already begun. The importance of 
your support and active involvement in Full-Service Community Schools 
cannot be understated.
    Thank you.

    Senator Bingaman. Thank you very much, appreciate it.
    Mr. Horn, thank you for coming and look forward to hearing 
your views.

  STATEMENT OF MICHAEL B. HORN, EXECUTIVE DIRECTOR, INNOSIGHT 
                  INSTITUTE, MOUNTAIN VIEW, CA

    Mr. Horn. Thank you very much for the opportunity, Senator. 
And thank you to all the members that you've brought together 
here. It's quite a list of people and I'm thrilled to be on 
this panel speaking to you today.
    Even as we have this conversation about the importance of 
extended learning time, for many as I think Superintendent 
Brooks pointed out, certainly not all but many of our students, 
the reality of what's happening outside of this room and 
outside of this conversation and many of the efforts discussed 
today is that districts and States are actually having to cut 
back.
    At the very point where we need many students to have extra 
hours and time spent learning, we're not just shedding extra 
hours, we're actually shedding full days from the learning 
week.
    Districts ranging from L.A. Unified to rural school 
districts here in New Mexico and all over the country have gone 
to or are considering 4-day weeks because of the budgets crises 
facing them, with the result being that many students now get 
actually less time for learning than before, even when the 
evidence shows us so markedly that we need it to be the other 
way around.
    So the question is what do we do about this. Spending more 
money seems not to be the solution, because the reality is that 
we don't have more funds available. Municipalities, districts, 
and States are plunging right now into even greater fiscal 
crises. This won't stop anytime soon, not to mention that the 
Federal Government has some budget issues of its own.
    The budget picture is not going to brighten anytime soon. 
The question, of course is, Is it hopeless? I don't think so at 
all. A solution exists that provides more learning time for 
those students who need it in a more flexible, cost-effective 
manner than the present system which is online learning.
    Online learning is a classic disruptive innovation. 
Disruptive innovation is one that transforms a sector by 
introducing simplicity, affordability, accessibility, greater 
decentralization and, therefore, more flexibility, and 
customization, where before the sector services were expensive, 
inaccessible, centralized, and inflexible.
    It initially takes root in narrow foothold areas where the 
alternative for users is literally nothing at all, what we call 
nonconsumption. And from there it improves and gains shares. 
One by one users flock out to the disruption because they're 
delighted with something that's more affordable, simpler, more 
convenient, and the world is transformed over time.
    It's the process that's transformed computing into one 
where nearly everyone can afford a computing device. And it's a 
process that has brought affordability to cars so that nearly 
everyone can own one.
    It's taking place in education as we speak. And it does 
have the potential to solve the dilemma of extending learning 
time for those who need it in a time of declining resources as 
well as to transform the system into a more student centered 
one.
    Online learning is first planting itself in these foothold 
areas where the alternative is literally nothing at all. For 
example, it's gaining traction in credit recovery--Boston 
Public Schools has been a leader in this as of late--as well as 
dropout recovery programs.
    For many students, when they fail a course, there's no way 
for them to make it up and recover the credits to graduate. And 
across the country 30 percent of U.S. students drop out of 
school for a variety of reasons including 13,200 students in 
New Mexico in 2009. Online learning is a welcome and affordable 
way to offer these students a way to get back on track in a 
convenient fashion that works for them.
    Another place online learning is taking root is in the 
advanced courses that many schools, especially small, rural, 
and urban ones, are unable to offer. This doesn't just refer to 
advanced placement courses but instead impacts courses that 
many of us would consider quite core.
    Twenty-five percent of high schools around the country do 
not offer an advanced course defined as anything above 
geometry, so no algebra II, no trigonometry, forget about 
calculus; anything above biology, so no chemistry or physics; 
and any honors English class at all.
    There are certainly students, however, in those schools 
that would like or even need access to those courses. And so 
aggregating demand across many school districts and offering 
them online is a welcome solution.
    At first glance the budget crises facing districts are 
deeply threatening as they have resulted in this loss of 
learning time. Seen from another perspective, however, they 
should, in fact, be a welcome opportunity to transform our 
education system into this more flexible one that can actually 
customize for different student needs and provide students with 
more learning time than is, in fact, possible in the 
conventional system.
    If schools need to cut back on the physical days in class, 
for example, to save dollars in building or transportation 
costs, there's no need the learning has to stop too. Offer the 
students opportunities to learn online. This will not only 
prevent students from losing time on learning, but it can also 
be an enormous opportunity and allow them to actually gain more 
time for learning as it makes, in effect, an extended day such 
that students can learn at any hour of the day any day of the 
week.
    This can both save money and produce better results. But to 
do it right, we must free districts from various restrictions 
that limit how they can use their funds such that they are able 
to move beyond regulations that tie funding to seat time, for 
example, and progress toward tying funding to successful 
outcomes.
    What will naturally happen, if we tie funding to successful 
student outcomes in the online system such that time is 
variable so learning is constant, is that those students that 
need more time for learning will have that more time. This will 
allow them to have more repetitions, different pathways through 
the materials, or more time on task such that they can realize 
the learning objectives before them.
    But for those students who can breeze past something, they 
will be able to move on to the next concept or to various 
enrichment activities or projects, which will be a great thing 
because it will keep them more engaged. Ultimately we're going 
to have to figure out how to deliver more with less.
    Fortunately there is a path to do that if we'll take the 
first steps forward and stop the insanity of cutting back 
learning time at the very point when we need to extend it for 
so many of our students. Thank you for this opportunity today.
    [The prepared statement of Mr. Horn follows:]

                 Prepared Statement of Michael B. Horn

    Even as we have this conversation today about the importance of 
extending learning time for many--certainly not all, but many--U.S. 
students, the reality of what is happening outside this room and 
outside many of the efforts discussed today is that most districts and 
States are having to cut back. At the very point where we need many 
students to have extra hours of time spent learning, we are not just 
shedding extra hours, but we are actually shedding full days from the 
learning week. Districts--ranging from LA Unified to rural school 
districts here in New Mexico--all over the country have gone to or are 
considering 4-day weeks because of the budget crises facing them, with 
the result being that many students now get less time for learning than 
before, even when the evidence shows us so markedly that we need it to 
be the other way around.
    So what do we do about this? Spending more money is not a solution 
because the reality is that we don't have more funds available. 
Municipalities, districts, and States are plunging right now into even 
greater fiscal crises, and this will not stop anytime soon, not to 
mention that the Federal Government is swimming in red ink. If the 
budget picture is not going to brighten anytime soon, is this hopeless?
    Not at all. A solution exists that provides more learning time for 
those students who need it in a more flexible, cost-effective manner 
than the present system: online learning.
    Online learning is a classic disruptive innovation. A disruptive 
innovation is one that transforms a sector by introducing simplicity, 
affordability, accessibility, greater decentralization and therefore 
more flexibility, and customization where before the sector's services 
were expensive, inaccessible, centralized, and inflexible. It initially 
takes root in narrow foothold areas where the alternative for users is 
nothing at all--places we call nonconsumption--and from there it 
improves and gains share as one by one users flock out to the 
disruption and the world is transformed. This is the process that has 
transformed computing into one where nearly everyone can afford a 
computing device, and it is the process that has brought affordability 
to cars so that nearly everyone can own one. It is taking place in 
education, and it has the potential to solve the dilemma of extending 
learning time for those who need it in a time of declining resources--
as well as to transform the system into a far more student-centric one.
    Online learning is first planting itself in these foothold areas 
where the alternative is literally nothing at all. For example, it is 
gaining traction in credit recovery and dropout recovery programs. For 
many students, when they fail a course, there is no way for them to 
make it up and recover the credits to graduate, and across the country, 
30 percent of U.S. students dropout of school for a variety of reasons. 
Online learning is a welcome and affordable way to offer these students 
a way to get back on track in a convenient fashion that works for them.
    Another place online learning is taking root is in the advanced 
courses that many schools--especially small, rural, and urban schools--
are unable to offer. This doesn't just refer to Advanced Placement 
courses, but instead impacts courses that many of us would consider 
core. Twenty-five percent of high schools do not offer an advanced 
course, defined as anything above geometry--so no algebra 2 or 
trigonometry or calculus; anything above biology--so no chemistry or 
physics; and any honors English class at all. There are certainly 
students in those schools, however, that would like or even need access 
to those courses, and so aggregating demand across many school 
districts and offering them online is a welcome solution.
    At first glance, the budget crises facing districts are deeply 
threatening, as they have resulted in this loss of learning time. Seen 
from another perspective, however, they should in fact be a welcome 
opportunity to transform our education system into a more flexible one 
that can customize for different student needs and provide students 
with more learning time than is in fact possible in the conventional 
system, as the budget shortfalls will expand these areas of 
nonconsumption.
    If schools need to cut back on the physical days in class to save 
dollars on building and transportation costs, there is no need the 
learning has to stop, too. Offer the students opportunities to learn 
online. This will not only prevent students from losing learning time, 
but it can also be an enormous opportunity and allow them to gain more 
time for learning, as online learning can in effect extend the day such 
that students can learn at any hour of the day any day of the week.
    This can both save money and produce better results. To do this 
right, however, we must free districts from various restrictions that 
limit how they can use their funds such that they are able to move 
beyond regulations that tie funding to seat time, for example, and 
progress toward tying funding to successful outcomes. What will 
naturally happen if we tie funding to successful student outcomes in 
the online system--such that time is variable so learning is constant--
is that those students that need more time for learning will have more 
time to learn. This will allow them to have more repetitions, different 
pathways through the learning materials, or more time on task such that 
they can realize the learning objectives before them. For those 
students who can breeze past something, they will be able to move on to 
the next concept or to various enrichment activities, which will be a 
great thing because it will keep them more engaged.
    Ultimately, we are increasingly going to have to deliver more with 
less. Fortunately there is a path to do just that if we will take the 
first steps forward and stop the insanity of cutting back on learning 
time at the very point when we need to extend it for so many of our 
students. Online learning represents that path, as even in a time of 
fewer resources, it can allow us to deliver more time for learning and 
more successful results.

    Senator Bingaman. Thank you very much, appreciate it.
    Dr. Bernstein.

  STATEMENT OF ELLEN BERNSTEIN, Ed.D., PRESIDENT, ALBUQUERQUE 
              TEACHERS FEDERATION, ALBUQUERQUE, NM

    Ms. Bernstein. Thank you, Senator. And thank you for the 
opportunity to address you and talk about this important topic 
here today. And I would also like to say thank you so much for 
your vote on the jobs bill. You literally saved our school 
year. Thank you.
    If standards are to be the constant, then time has to be 
variable. When both time and standards are the constant, 
teachers are forced to work in a system that demands coverage. 
And coverage is the enemy of understanding. When schools are 
not structured with the time necessary to teach for 
understanding, then students, teachers, schools, and entire 
districts are labeled as failing even when quite often they're 
making great progress.
    When standards are the constant and time is allowed to be 
the variable, teachers are able to teach toward understanding. 
Understanding leads to deep conceptual knowledge. And with that 
as our learning goal, our graduates will be able to apply their 
understanding in diverse situations and to solve problems in 
innovative and creative ways. These are truly the skills 
necessary for both life and for work.
    One recent step toward achieving two of our Nation's 
educational goals, closing the achievement gap and increasing 
the graduation rate, has been to develop and adopt common 
standards. These standards define knowledge and skills that 
students should have within their K-12 education.
    As unprecedented and important as common standards may be 
in our effort to meet our goals, one type of standard has 
largely gone unaddressed. Opportunity to learn standards have 
been defined over time as the essential elements in education 
that gives all students an opportunity to access the 
curriculum.
    Some of those opportunities to learn standards are a 
competent qualified and caring teacher, appropriate curriculum 
materials, adequate technology, and support services. This list 
of opportunity to learn standards is indisputable, yet there's 
one ingredient that has to be added to that, and that's the 
ingredient of time.
    Focusing our efforts on time holds the promise of 
addressing many of the factors that create the opportunity gap. 
Additional school time is an important step toward closing the 
achievement gap and of increasing graduation rates.
    But these two goals really fall short of what students 
ultimately need and deserve. We have to strive for more than 
merely graduating students with surface knowledge and good test 
taking skills. As a nation we have to invest innovative uses of 
time so that opportunity to learn standards connected with time 
will help us realize our content and performance standards.
    In order to avoid more of the same, additional time has to 
be implemented in tandem with innovative uses of time. Using 
existing and additional time in innovative ways has the 
potential to disrupt the status quo, the status quo of our 
obsolete classrooms, schools, and districts.
    We can then aspire to go beyond just closing the 
achievement gap and increasing the graduation rate. Teachers 
will be able to develop in their students the skills, 
attributes, and dispositions that employers want and that our 
students need.
    Schools will graduate students who are creative, 
innovative, adaptable, self-motivated, and are able to solve 
problems and to work in groups. A purposeful and innovative 
rethinking of school time has many important and interconnected 
effects
    Teachers' pedagogical strategies will become more diverse, 
engaging, and robust; students' needs will be better identified 
and addressed; and teaching will become a more attractive 
profession. Thus, our school system will have an unprecedented 
ability to attract the best candidates into teaching and retain 
the most effective teachers.
    Once we free ourselves from the factory model and the times 
practices that have handcuffed us to that structure, we have to 
rethink unquestioned time-honored practices, like grouping 
students in grades, grading as a way to communicate learning, 
moving students around based on bell schedules, separating 
structures into discrete blocks of time, and connecting high 
school graduation on Carnegie units.
    Schools can be no longer expected to change and yet still 
look the same. It's time to get away from the legacy of the 
factory that imprisons us as educators and the students we 
teach. We know that a cage for every age is an archaic and 
dysfunctional way to group students. And it's time for us to 
start questioning the sacred rituals of schools and school 
systems. I think we can use the issue of time as a catalyst to 
do just that.
    As you noted in the TIME Act that you cosponsored in 2008 
with Senators Kennedy and Sanders, you promoted not only the 
importance of adding time not just to catch up on the basics, 
but also adding time so that every student is entitled to what 
they should have, which is a well-rounded education that 
includes fine arts, physical education, and more, but also time 
that's essential for teachers to plan and collaborate together.
    When we focus on innovative uses of time in our schools, we 
should ensure that there is expanded time as has been pointed 
out for young children. It should be included but not limited 
to some of the things we've done here in New Mexico, such as 
full-day K, pre-K, K-3 plus.
    We also need to create flexible time within the day for 
intervention, remediation, and enrichment. We need to invest as 
has been said in full-service community schools that are open 
evenings, weekends, and year-round.
    We need to eradicate the practicing of laboring students in 
grades and allow them to learn at their own rate. We need to 
disconnect high school graduation from Carnegie units. And we 
need to invest in teacher time above and separate from the time 
they spend teaching students.
    Making these goals a reality will require an unprecedented 
investment in additional teachers and support staff as well as 
in the teachers themselves. Even within APS each community has 
its own unique needs. It would be difficult to devise an 
effective staffing formula without taking into account all the 
diverse realities.
    As a local union president, I embrace the opportunity for 
work toward redefining school time, staff roles and 
responsibilities, and the daily work of teachers. This effort 
will make a substantial difference for all students especially 
when done in partnership with teachers and their unions, 
policymakers, as well as the community.
    I think the U.S. Department of Education is searching for 
an appropriate role to play that would provoke change in our 
school systems. Up until this point, reform initiatives have 
been created in silos with little effort--with each effort 
standing alone waiting for the promise of being the thing that 
changes the entire system.
    Time has that possibility. And supporting this effort would 
be a significant and positive role for our Federal Government 
to play. The investment would be tremendous and the results 
would be astounding. Thank you, Senator.
    [The prepared statement of Ms. Bernstein follows:]

              Prepared Statement of Ellen Bernstein, Ed.D.

    If standards are the constant, then time must be the variable. When 
both time and standards are the constant, teachers are forced to work 
in a system that demands coverage and coverage is the enemy of 
understanding. When schools are not structured with the time necessary 
to teach for understanding, then students, teachers, schools and entire 
districts are labeled as failing when quite often they are making great 
progress.
    When standards are the constant and time is allowed to be the 
variable, teachers are able to teach for understanding. Understanding 
leads to deep conceptual knowledge that is supported by a body of 
skills and facts. Students are able to apply their understanding in 
diverse situations and solve problems in innovative and creative ways. 
Creating schools where time is the variable is the path toward the 
vision of the New Commission on the Skills of the American Workforce:

          The best employers the world over will be looking for the 
        most competent, most creative, and most innovative people on 
        the face of the earth and will be willing to pay them top 
        dollar for their services . . . Beyond [strong skills in 
        English, mathematics, technology, and science], candidates will 
        have to be comfortable with ideas and abstractions, good at 
        both analysis and synthesis, creative and innovative, self-
        disciplined and well-organized, able to learn very quickly and 
        work well as a member of a team and have the flexibility to 
        adapt quickly to frequent changes in the labor market as the 
        shifts in the economy become ever faster and more dramatic.

    As a nation, we must invest in the following uses of time as the 
Opportunity-to-Learn Standards that make the realization of content and 
performance standards possible. As we focus on innovative uses of time 
in our schools, we should:

    <bullet> Ensure that there is expanded learning time for young 
children including, but not limited, to quality pre-kindergarten, full-
day kindergarten, and extended school years.
    <bullet> Create flexible time within the day for intervention, 
remediation and enrichment.
    <bullet> Invest in full-service Community Schools that are open 
evenings, weekends and year-round.
    <bullet> Eradicate the practice of labeling students in grades and 
instead allow them to learn at their own pace.
    <bullet> Disconnect high school graduation from Carnegie Units.
    <bullet> Invest in teacher learning time, above and separate from 
the time spent teaching students.

    Reform initiatives have been created in silos with each effort 
standing alone waiting for the promise of being the thing that changes 
the entire system. Time has that possibility. The investment would be 
tremendous and the results astounding.

    Senator Bingaman. Thank you, thank you very much.
    Dr. Sheila Hyde. Thank you. You're the cleanup hitter in 
this group. So go ahead.

 STATEMENT OF SHEILA HYDE, Ph.D., DEPUTY SECRETARY, NEW MEXICO 
           PUBLIC EDUCATION DEPARTMENT, SANTE FE, NM

    Ms. Hyde. No pressure. Good morning, Senator. Thank you for 
allowing me to represent the Department of Education here in 
New Mexico. I bring greetings from Secretary Murphy.
    And, you know, you mentioned earlier that I used to work 
for you and that I have moved on to bigger and better things. I 
have to tell you that I love the work I'm doing now. But I tell 
you, it would be hard to improve upon the work I got to do with 
you.
    Senator Bingaman. That's very nice. Thank you.
    Ms. Hyde. It was truly an honor.
    I was listening to my colleagues here offering various 
perspectives about what we see as the innovative approaches to 
school time. We heard about one school that went in and looked 
at what they could do and we heard about flexibility.
    We heard about themes of afterschool programs and the 
importance of that. We heard about the perspective from online 
learning and what that brings in terms of efficiencies. We 
heard from Ellen about the importance of focusing on what goes 
on in that classroom and with the teachers and their 
professional development, and the ability to really look across 
the spectrum.
    From a State perspective, what we I think have learned the 
last three or 4 years is that one size just does not fit all. 
We have such complexity from rural schools to urban schools to 
Native American schools. And we really need I think as we've 
learned is that we have to do this innovative approach to 
school time together. We have a wealth of information around 
these tables and also in this room.
    As we were working on the school improvement grant over the 
last 6 or 8 months, we learned some very valuable lessons about 
when we bring superintendents and principals and teachers and 
all of our partners together to look at the root causes of the 
problems in individual schools, individual classrooms, and 
individual districts, we come up I think with a lot better 
answers together.
    I think the reauthorization of ESEA might give us that 
chance to do that differently in the next generation of 
accountability and assessments, using real data to track 
student progress from year to year, longitudinal data systems, 
that let teachers really see where individual students have 
problems.
    Our current system doesn't really give teachers that kind 
of information. And we can look at extended time, expanded 
time, summer programs. But we also really need to look at those 
individual classrooms at whatever time they're teaching.
    So we give them information about those students that 
really gives a full picture of what's going on for that 
student. Giving time for those teachers to really learn and 
grow and plan is essential for us to really give them the 
skills and competencies to do their jobs.
    As we look at some of the promising practices here in New 
Mexico, you heard from Superintendent Brooks about the things 
that they're doing to extend the school day, extend the school 
year.
    One of the brave things our Legislature did in 2009 was 
pass legislation that required 180 full days of instruction, 
exclusive of in-service. That was very brave. Then we came up 
to can we fund it. And we had to back off from that, because 
districts simply couldn't afford 180 full days of instruction.
    So as we look at the dollars that are coming to us with 
school improvement grant, for example, we're seeing schools in 
districts use that money for Saturday school, we see them use 
it for summer programs, Early Start, for pre-K, Early Start for 
elementary, Early Start for our middle schools that are really 
struggling. We're seeing them do more with parent and teen 
centers at night and on the weekends to really support parent 
literacy.
    We're seeing a lot more going on during the summer. For 
example, Lybrook Elementary in Jemez Mountain, one of our 
School Improvement schools, they have a year-round school 
program. And some of our other schools do too. But this is a 
very isolated community and where the summer slide we really 
see happen.
    And in fact, there's the mud slide that happens. If you 
know those roads during the regular year, those buses simply 
can't get to schools during the regular year. So having that 
flexibility of a summer program year-round is going to make a 
real difference. They're really struggling in those isolated 
communities.
    One of the things that we're seeing too is the ability to 
offer some incentives to teachers to have a longer day to be 
able to plan. And we hope we see real payoffs. I know a couple 
of schools here in APS did that on their own. We also see, for 
example, in Santa Fe, De Vargas Middle School is partnering 
with Citizen Schools to add 2 hours a day without extra 
funding.
    We're seeing those kinds of innovative approaches all over 
our State. But we need ongoing help from Washington as we look 
at that reauthorization to be able to take AYP with much more 
flexibility so we're not just focused on assessments and State 
tests. And that would certainly help us a lot.
    I was moved last week at the debate with the 4th grader who 
talked about he wanted to give a tribute to his kindergarten 
teacher because she taught him to read. And we need to make 
sure that our early childhood is really funded. That's one of 
our key ingredients, whether we do Early Start in the summer 
like we're doing with our K-3 plus or other programs, we need 
those kinds of early childhood efforts to continue.
    So I am very pleased at what I'm seeing here in the State. 
Individual brave principals and superintendents and teachers 
and other partners that are stepping up to work this out 
together. But if we can keep our focus on that together part as 
we look at time to help weave us to be a real force in this 
State, I think we're going to see big improvements. Thank you 
very much.
    [The prepared statement of Ms. Hyde follows:]

                Prepared Statement of Sheila Hyde, Ph.D.

                              INTRODUCTION

    The purpose of my testimony is to provide a State Perspective on 
the benefits of innovative approaches to school time, the expectations 
for implementation of these approaches, and some of the promising 
practices being implemented in New Mexico. First, the key element of 
high-performing schools seems to be ``time''. Studies show that both 
expanded time and the particular ways it is deployed and managed are 
drivers in creating effective schools. The correlation between the 
amount of actual time students spend learning and how much they learn 
is very high. In fact, a longitudinal study at Duke University 
concluded that, on average, all students lose about a month of progress 
in math skills each summer, while low-income students lose 3 months in 
reading comprehension. Since A Nation at Risk report in 1983 launched 
the standards-reform movement, more time in core academics is the only 
one of the five key recommendations that has not been implemented on a 
broad scale. Our ``time'' has come in New Mexico to tackle that 
critical element.

                    BENEFITS TO NEW MEXICO STUDENTS

    Expanded learning time devoted to core academic outcomes, 
enrichment activities, and for teachers to collaborate and plan will 
increase student achievement and improve graduation rates. It is an 
investment with the potential for high yields in New Mexico--a better 
workforce, reduced crime, stronger communities, healthier families, and 
renewed respect for a diverse culture.

                 GUIDING PRINCIPLES FOR IMPLEMENTATION

    1. Schools commit to examine their data, the current way the 
schools use time, and focus on improving the quality of instruction for 
all content areas in order to meet their students' learning goals.
    2. Schools increase the amount of time for teaching core subjects 
and align their curriculum to better deliver instruction.
    3. Schools increase the enrichment opportunities that align to 
State standards and that engage students in their own learning styles 
and career path.
    4. Schools re-design their schedules to build professional learning 
communities for their teachers, afterschool providers, and 
administrators in order to improve instructional practices and results.
    5. Districts invest in providing time for the principal to be an 
effective instructional leader.
    6. The community unites around the extended learning time 
strategies and works with the school to leverage resources, both human 
and fiscal.
    7. Student progress is tracked using multiple measures and all 
extended time learning partners have access to the individual student 
data (teachers, parents, afterschool providers, principals, district 
staff, board members, etc).

                   PROMISING PRACTICES IN NEW MEXICO

    Legislation. In 2009, New Mexico passed HB 691 which requires a 
minimum of 180 full instructional days for a 5-day school week, 
exclusive of any release time for in-service training. Because of 
budget shortfalls, the date for implementing this law has been delayed 
until it can be funded.
    Extended days. Many of our schools have added 1-2 hours a day to 
their school day. For example, De Vargas Middle School in Santa Fe 
Public Schools added 2 hours each day and are partnering with Citizen 
Schools to deliver services.
    Year Round Schools. Some of our schools have adopted a year-round 
school schedule. For example, Lybrook Elementary School in Jemez 
Mountain Public Schools has a year-round schedule to help with the 
``summer slide''.
 arra title i school improvement grant 2010 reforms in approved schools
    <bullet> Additional days of instruction for all students.
    <bullet> Extended core program with additional minutes for 
intervention in Reading and/or Math.
    <bullet> Extended learning time that provides project based 
learning needed to develop background knowledge and expose students to 
activities beyond their rural isolation.
    <bullet> After-school program that focuses on academic tutoring.
    <bullet> Early start (2 weeks) for all incoming Kindergartners.
    <bullet> Jump start of 3 days for all incoming 9th graders.
    <bullet> Extended summer programs and extended day programs, 
aligned with the core curriculum.
    <bullet> Specialized teams that provide intense individualized 
instruction for students identified as needing intervention in reading 
and/or math.
    <bullet> Extended learning opportunities through homework help, 
Distance Learning opportunities, Saturday School, and Credit Recovery 
programs.
    <bullet> Common planning time to allow staff to monitor student 
academic progress toward standards and time to modify instruction and 
assessment to improve student outcomes.
    <bullet> Transportation for students to attend extended learning 
opportunities (Saturday school, summer programs, etc).
    <bullet> Parent Center and Teen Center to support Social Emotional 
Supports to enhance academic achievement.

                               CONCLUSION

    The New Mexico Public Education Department is committed to 
providing leadership, technical assistance, program evaluation, 
established priorities for funding opportunities, and advocacy to 
integrate expanded learning time strategies in our reform agenda.

    Senator Bingaman. Thank you very much. Thank you all for 
your excellent testimony. Let me ask a few questions to try to 
get my mind around this set of issues. There are lots of 
variables, lots of ways that have been proposed and that have 
proven successful in different settings to improve education.
    I think the point Ellen was making about we're adopting 
common standards nationwide, New Mexico signed onto that, I 
think that's a very major step forward for the country.
    Also, I think your point was, and the way you put it is, 
standards should be constant and time should be the variable. 
And I agree with that. But I think that to me that means that 
for an awful lot of our kids, there's going to have to be more 
time to meet these standards.
    I mean they're not going to meet these standards spending 
less time working at it. They're going to have to meet these 
standards by spending more time working at it. Now, whether 
they do that in a structured classroom setting or whether they 
do it in an online course or they do it in an after school 
program or whatever means they find to spend more time learning 
that course material in order to meet those standards, the 
pressure is going to be on us to find ways to do it.
    Some of you mentioned that the budgetary problems are 
moving us unfortunately in the opposite direction. You have 
school districts that are going to 4-day weeks. Instead of 
doing what Jeffrey described of extending the school day, 
you're finding, I think, ways that the actual instruction in 
schools is being reduced.
    So I don't know. But it just strikes me that finding a way 
to give students adequate time to learn the material and give 
teachers adequate time to teach the material. I've had teachers 
around the State say to me that their biggest frustration is 
that so many days are spent with the kids taking tests and so 
many days are spent with the kids off doing athletic trips and, 
you know, everything is shortened down so that the number of 
hours they have to actually teach the kids the course material 
that they're responsible for teaching the kids is dramatically 
shortened or constrained.
    We've got to find a way to fix that problem some way or 
other. And I understand there are all kinds of impediments to 
doing so.
    Let me ask you, Jeffrey, Was the issue of funding some of 
this increased--extended learning opportunities and extended 
time, how did you guys solve that in Boston or how are you 
solving that?
    Mr. Riley. So Massachusetts actually was the first State in 
the country to have the legislature set aside money for this 
program as a pilot, where 20 plus schools would be allowed to 
have this expanded learning time program at a cost of $1,300 
per kid.
    Now, in the Boston Public Schools, we spend well over 
$10,000 a kid educating students. So we wound up getting an 
extra 40 percent about more instructional time at just $1,300 a 
kid. So we found it to be cost-effective in some ways. But it 
was a State initiative led by the late Senator Kennedy who 
brought that to Massachusetts.
    Senator Bingaman. So essentially you got an increase in the 
budget that you could use there in your school because you were 
one of the 20 schools?
    Mr. Riley. Right. Each school got $1,300 per kid and then 
multiplied by the number of students you have. And that money 
was then broken up between stipends for teachers and our 
afterschool providers that we use to lengthen the day.
    Senator Bingaman. And the stipends for teachers, you said 
that that was strictly on a voluntary basis, that teachers who 
wanted to--
    Mr. Riley. Looking in hindsight, I think the best thing we 
did with the union was that we agreed to make it voluntary. 
Over 97 percent of my teachers stayed for at least an extra 
hour. Many stayed for the entire time.
    But, we had to recognize that we had teachers who had to 
pick up kids--people have different issues in their lives. And 
so some people were able to stay for the extra time, some 
people weren't.
    But because it was voluntary, I think it was set up in a 
different way than you had to do it, it was mandatory. And what 
we found is teachers rose to the occasion. And they got paid at 
the contractually hourly rate per hour. And between that and 
what we paid the outside providers, we were able to make it 
work.
    Senator Bingaman. OK. One other teacher that I spoke to, in 
fact, she was a teacher who came to Washington a couple months 
ago, getting a national award as a science teacher, I think 
she's from Cloudcroft.
    I asked her about advanced placement courses that might be 
offered at Cloudcroft High School. And she said that--I don't 
want to misquote her here. But she was saying that at least 
some of the advanced placement courses that they had offered 
before online, and you were referring to that, Michael, they 
were not able to offer this year because of lack of budget.
    So I don't know. I mean if, in fact, instead of having the 
circumstance that Jeffrey's got, we've got a circumstance where 
we're cutting back on offerings in our schools as well as 
cutting back on time for instruction in our schools. It strikes 
me that I don't know exactly how we work our way out of that. 
Any of you have great insights into how to solve this problem? 
Michael, go ahead.
    Mr. Horn. A couple thoughts. One is a lot of school 
districts, because of the way they're constrained with limits 
and restrictions on certain funding streams, don't have the 
flexibility to make maybe the most strategic cuts.
    Therefore, there are certain things that they could do 
uniquely only within their school walls and there are other 
things that they could find innovative ways of doing, whether 
it be online or offering afterschool programs and partnerships 
and so forth.
    But because the funding tends to be pretty tied up by the 
time it gets to them, a lot of the districts at least in 
California that I have spoken to say, yes, in theory this could 
be an opportunity, cutting back could be an opportunity. But we 
don't have that opportunity at all because we're too hamstrung.
    And so as a result, what you see a lot of districts doing 
is sort of making vertical cuts straight down the programs 
which end up paring everything back rather than using the 
strategic opportunity to reformulate the way they actually do 
business itself.
    Senator Bingaman. Any of the rest of you, Sheila, have a 
thought on any of this?
    Ms. Hyde. One of the things that I think is a promising 
practice here in New Mexico really is Ideal New Mexico, because 
what that is intended to do is to partner with public ed and 
higher ed and the districts to be able to offer things that 
they can't offer depending on where they are.
    It may be an AP course, it may be a core subject that you 
can't find a teacher in a rural area in New Mexico. But also to 
offer credit opportunities and to offer those kinds of 
opportunities to teachers who want to participate and lead 
those courses.
    So not as an option instead of what that relationship can 
bring them in a school, but for credit recovery, for bringing 
kids back that we frankly may never get to graduate, maybe to 
get their GED. But that is one vehicle that I think can really 
partner well with districts.
    Senator Bingaman. Will it cost school districts money?
    Ms. Hyde. In some cases it does. But in some cases those 
courses are really free. And we reimburse districts for those 
students taking those courses, they get SEG money for that. So 
we're hoping we can continue that.
    Senator Bingaman. SEG, tell me SEG.
    Ms. Hyde. Student Equalization Grant, which is their 
funding formula.
    Senator Bingaman. Right. OK. Yes, Renee.
    Ms. Paisano-Trujillo. I think the other thing is looking at 
how we maximize what's already there. I think sometimes 
redirecting resources and involving your community in that 
process, I'm really an advocate for involving the community, 
hence, Full-Service Community Schools.
    I also think making funding flexible. I think if we look at 
Title I and a few other things like supplemental education 
services and see how that can support extended learning time.
    And creating cost efficiencies by looking at what's already 
in the community that can contribute to that classroom space. 
That does need intentional coordination which requires some 
funding. But I think there are cost efficiencies in all of 
that.
    Senator Bingaman. OK. Let me ask you, Winston. Go ahead, 
please.
    Mr. Brooks. Well, I do think that it's incumbent upon the 
school districts to really analyze what kind of programs 
they're currently using and whether or not they're the best 
programs.
    I think for so many years, and I'm guilty, we have 
purchased and bought things to put into the classrooms that 
over time we realized have not had that much of an impact or 
that we never looked at to see whether it had an impact or not. 
But we just keep spending the money.
    I think we really need to look at some of those programs. 
And those things that aren't working and if there's no data to 
support that they're working, we ought to get rid of them. And 
we've really done that I think with some degree of efficiency 
here in APS.
    I hope I'm not going to get crosswise with some of my 
colleagues here. But I really wouldn't want you to walk away 
from here today thinking, though, that online learning is going 
to be the magic answer to all of our education woes.
    I happen to be a big time supporter of online learning. And 
I agree with Dr. Hyde, I think Ideal New Mexico is fantastic. 
But I don't think there's anything that can replace a highly 
qualified teacher. And sometimes that highly qualified teacher 
can be presented to a student via online learning.
    I think the research is currently saying that a blended 
method, if you're going to use online learning, let's use a 
blended method, where the student has both access to a highly 
qualified teacher but also to the world around them.
    But we just yesterday--you may have heard about it. We just 
distributed about 200 laptop computers to students at Nex-Gen 
Academy, a new magnet high school that we're opening that 
Sandia Laboratories and Intel have been very supportive. It's 
one of the greatest public/private partnerships that I'm aware 
of in the country.
    I'm very supportive of that. I think online learning opens 
up a whole world to our students that many of them don't have 
access to. But I don't want to underestimate the value of a 
highly qualified teacher standing in front of a student.
    I just want to get that plug in, that all the answers to 
our woes won't be accomplished I don't think through online 
learning totally.
    Senator Bingaman. I agree with that.
    Mr. Horn. Can I actually----
    Senator Bingaman. Fine. Go right ahead.
    Mr. Horn. Yes, I don't disagree. I guess I should clarify. 
When I say online learning, I do not mean distance learning.
    I suspect that 90 plus percent of online learning will 
actually be in hybrid bricks and mortar arrangements of various 
sorts with an adult person there who may be serving a very 
different role in some cases. Some cases they may be the 
instruction or content expert, other cases they just may be a 
mentor or motivator.
    I suspect you're going to have some really unique teaching 
models that get brought out of this in the future, where you 
have many different roles for teachers; a virtual expert living 
anywhere, for example, mentor in person with the student, 
problem solving, working one-on-one, facilitating group work.
    So I very much agree. I think a teacher is a vital part of 
this. Whether we call it a teacher in the future, I guess that 
might change. But it's going to be an adult figure who has a 
lot of those responsibilities.
    Senator Bingaman. Let me ask about this problem with the 
loss of competence on the part of kids during the summer break.
    I mean I've always heard about this and, you know, kids 
lose, I don't know how many months of instruction, they fall 
back, particularly kids whose parents are not signing them up 
for everything that goes on in the summer.
    Is there any solution to that other than just more money in 
the school system? Sheila, you talked about Lybrook now and 
that they've gone to a year-round school model out here. That's 
a very small school.
    Ms. Hyde. Correct.
    Senator Bingaman. How does that work? In that district out 
there, can they do that without having more money or what do 
they give up by doing that?
    Ms. Hyde. Well, they break their year up differently. So 
they might go for 9 weeks and take a week. And they do that all 
during the year, except close to the summer they'll take a 6-
week time off. But they're trying to keep that summer slide 
from happening.
    And also, because they lose a lot of days during the year 
simply because the kids and the teachers can't get there. And 
so they set that up to be able to do that. So they do a 
variable school calendar to do that.
    Now, they will get some extra money for the next 3 years 
with the school improvement grant to help them with some 
additional things on top of that regular full-year schedule. 
And there are other schools in the State that are doing that 
without additional dollars, they split their year up 
differently.
    Senator Bingaman. Ellen, what's your perspective on this 
idea? I mean both my parents were teachers. They didn't like 
the idea of working in the summer I don't think particularly. 
They had not acclimated to that. I certainly didn't like that 
idea when I was going to school. But what's your perspective?
    Ms. Bernstein. Thanks for asking, Senator. I think actually 
things have changed. And most teachers find employment during 
the summer, whether it's doing what they know best which is 
teaching or waiting tables. They usually end up supplementing 
their income in some way during the summer.
    And I don't think in most communities the idea of the 
summer break looks the way it did maybe when you and I were 
growing up in New Mexico. I mean my mother was free to take us 
to the pool every day. But I don't think that's the reality for 
most kids.
    Actually having the time as Sheila described, where you 
take the regular 180 days and you divide it over the whole 
year, like we do in APS with many of our year-round schools, 
every teacher I know that teaches in a year-round school loves 
that schedule.
    But still it's a burden on the parents in terms of there 
are weeks when those kids are not in school and they need some 
kind of supervision and daycare. So I'm not sure it's the 
answer for every community.
    I don't think it's possible, especially when you're looking 
at kids who are living in poverty, to escape the fact that time 
takes money. And that even when we're as innovative as we can 
be, we're looking at a terrific investment.
    And for myself I'm unapologetic about that need, because 
it's an investment in the future generation. I think we need to 
embrace the idea as with Full-Service Community Schools that 
fair is not equal. And that there are many communities in every 
State where we need to put more resources into the extended day 
and the extended year and the extended services that will 
really make a difference so that if we hold the standards 
constant, we can add the kind of time, support, and services 
that help them meet the standards in a reasonable--if not 
exactly the same point in time, a reasonable amount of time.
    So I think that and also I just can't underscore enough the 
investment in teacher time that will enable us as the 
professionals in the school to really think differently about 
our role as Michael pointed out. We cannot be standing up in 
front of a class, whether it's a bunch of 4-year-olds or a 
bunch of 18-year-olds, and just talking about what we know.
    We need better methods and we need school structures that 
support us to learn those methods, engage with our colleagues, 
and actually teach for total understanding. The school that 
Superintendent Brooks mentioned, Nex-Gen, is totally based on 
project based learning.
    And this is a tremendously fruitful pedagogy, where kids 
will come out with the kinds of skills you want them to have. 
But that's an investment also. So I don't think we're going to 
be able to do it without spending money.
    Senator Bingaman. Let me just ask Jeffrey, what do you do 
in Boston about the problem of kids sliding back in summer?
    Mr. Riley. Boston, actually this past year, worked with 
some of its foundations to change. We had our traditional 
summer school. But now we've created something called the 
Opportunity Agenda, where it was a summer learning program. 
I'll give you an example.
    Orchard Gardens which was named one of our turnaround 
schools was able to work with Thompson Island and do an outward 
bound program on the island where standards that kids needed to 
learn were infused throughout the curriculum.
    So kids didn't see it as going to summer school 
necessarily, they saw it as we're going to camp. It just 
happened to be that yes, there were the camp counselors. But 
there were also teachers on site. So that was just kind of one 
example of the many different opportunities that we're looking 
at to stop the summer learning loss that we see.
    Senator Bingaman. And how many of the kids actually have 
the opportunity to participate in any of this, these summer 
programs?
    Mr. Riley. It was a pilot program this year. We did it in 
six schools. And the early returns look promising and I think 
it's going to be doubled or tripled.
    Senator Bingaman. Yes, Renee.
    Ms. Paisano-Trujillo. Being a rural State, Senator, I think 
one of the big things we need to address--because I've served 
reservations and rural communities for so many years, we need 
to address the transportation issue. We need to look at 
transportation to make sure that young people can actually make 
it to programs.
    We've tried everything from summer camps to 1-week programs 
to make sure that there isn't that summer slide. But when 
you're dealing with a border community or a reservation 
community, especially in a place on the Navajo Nation, it's 
tough getting those kids to summer programs. So we need to 
somehow address that transportation issue.
    Senator Bingaman. OK. Sheila, go ahead.
    Ms. Hyde. And particularly I was happy to see within the 
guidelines for the school improvement grants that the schools 
could use their money for transportation. And I think all nine 
really did; because to extend that learning time, you have to 
have transportation. So that was very important to our 
implementing that fully.
    Senator Bingaman. Let me ask Michael, while we've got you 
here, you talk in your book I think about Florida Virtual 
School and how successful that has been. Could you describe 
that a little bit more and how does that differ from what 
Sheila was referring to with Ideal New Mexico.
    Mr. Horn. Certainly. I think there's a lot of similarities 
between Florida Virtual School and Ideal New Mexico. Florida 
Virtual School started earlier, 1997. And then an act of the 
legislature in Florida made it an independent, autonomous 
entity akin to a school district, which gave it the autonomy to 
come up with a new funding model for itself and do some things 
that a lot of State virtual schools have not been able to do 
because it operated autonomously.
    The year before they served 71,000 students in the State of 
Florida and beyond. I think there are around 80,000 students 
this year and something around 170,000 course enrollments or so 
now. I think Ideal New Mexico is around a couple thousand 
course enrollments.
    The key has been that the funding follows the student down 
to the course level. And Florida Virtual School only gets the 
funds if the student successfully completes the course. And the 
reason they can do that is because the time is flexible so that 
they can hold the learning constant. And it's actually been a 
big boon to the Florida Virtual School for its growth as a 
result.
    And they've been quite innovative as a result. They've 
pushed out the first online video game-based course, which has 
been fruitful for some students to learn in a different way. 
Not for every student certainly, but for many students. And 
they've been able to push a lot of these things because they've 
had their own autonomous model.
    Senator Bingaman. Now, is that structure that he described, 
where there's funding only provided in the case where students 
complete the course, is that something that we've adopted?
    Ms. Hyde. Well, we're experimenting with that right now 
through Graduate New Mexico, the governor's project using the 
stimulus dollars. We're trying to bring 10,000 graduates back 
to let them graduate. And the funding that is set up there, the 
district gets that if the student is successful in the course.
    And we're not quite sure if it's a plus or minus. We had 
some conversation today. I think superintendents may be 
cautious about that because they're going to front that money. 
And then if the student isn't successful, then they're not 
going to get their funding. And so that's kind of a double 
jeopardy situation. I would be anxious to hear how Florida 
addresses that.
    Senator Bingaman. Yes, how did Florida deal with that?
    Mr. Horn. Yes. It's interesting. And I suspect in the 
traditional model, it's not a system that makes a lot of sense. 
But it was because they reinvented it without the same costs 
and so forth, they could rethink the model from scratch, that 
it was able to work.
    They do get I think it's 11 point something percent up 
front regardless. And then the rest of the funding is 
contingent upon success. So there is some advancement, 
recognizing that there is a real cost for serving students that 
it may not work out for.
    The other thing that's interesting about it is it's not 
tied to then the school calendar. So we were having the summer 
school conversation earlier. And I asked them--someone at 
Florida Virtual School about a year ago, I said, Gosh, your 
enrollments in summer school must just be going through the 
roof right now, because I'm reading these articles about 
Florida cutting back.
    They said I don't understand the question. I said, well, 
hello, summer school is getting cut back. They said, Oh, yes, I 
guess so. But because it's year-round enrollment and you just 
enroll when you enroll and you finish when you finish, the 
question just didn't make sense to me when you first asked it, 
but I suppose that's true. So it's just a very different model 
from scratch that I suspect is difficult to implement in an 
existing system for some real reasons.
    Senator Bingaman. Well, I think this has been useful. No 
reason to prolong this. But I appreciate you all being here and 
your excellent testimony. As I said at the first, we're going 
to have this all as part of the record that we take back to the 
full committee.
    And we hope that we can use some of these insights in the 
reauthorization of No Child Left Behind which is, of course, a 
priority of the Congress. We had thought it was going to be the 
priority of the Congress in this Congress.
    As it turns out, it's going to be next Congress before we 
get this done. But I hope you'll all stay in touch with us and 
stay in touch with Angelo and Peter and keep us informed as to 
what we ought to be doing.
    Yes, Winston. Thank you again for being here. And go ahead.
    Mr. Brooks. Well, thank you.
    Senator Bingaman. Make any statements.
    Mr. Brooks. I know this has come up a couple of times 
regarding the common core standards. And I'm sure Peter and 
Angelo are well aware. But New Mexico, the State of New Mexico, 
and Albuquerque Public Schools specifically will be one of the 
six, maybe five test sites for piloting the common core 
standards.
    Boston is going to be one, I think Cleveland, I can't 
recite them all. But Dr. Hyde, Ellen, Peter Winograd with the 
governor's office, we've all been very much involved in leading 
this charge. So I just wanted to remind you that we're very, 
very involved here.
    Senator Bingaman. I remember that that's the case. And we 
discussed it before. And I think it's great that we're doing 
that. It's a feather in your cap that we were chosen to do it.
    Again, thank you all very much. And thanks, all of you, for 
coming today and we'll follow up and try to take these insights 
and put them to good use. That will end our hearing.

    [Whereupon, at 11:40 a.m., the hearing was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
